APPENDIX

i

APPENDIX
TABLE OF CONTENTS
Appendix A Published Opinion in the Supreme
Court of the State of Washington
(April 18, 2019) ........................... App. 1
Appendix B Order Amending Opinion in the
Supreme Court of the State of
Washington
(April 19, 2019) ......................... App. 37
Appendix C Order Amending Opinion in the
Supreme Court of the State of
Washington
(May 30, 2019) .......................... App. 39
Appendix D Order
Denying
Motion
for
Reconsideration and Motion for
Clarification in the Supreme
Court of the State of Washington
(May 30, 2019) .......................... App. 41
Appendix E Order Denying Motion to Dismiss
in the Shoreline District Court,
Washington
(August 17, 2016) ...................... App. 43
Appendix F Decision on RALJ Appeal in the
Superior Court of the State of
Washington
(June 2, 2017) ........................... App. 45

ii
Appendix G Ruling by Commissioner Mary
Neel of the Washington Court of
Appeals
(November 29, 2017) ................. App. 47
Appendix H Order Denying Motion to Modify
in the Court of Appeals of the
State of Washington, Division One
(March 7, 2018) ......................... App. 55
Appendix I West’s
Revised
Code
of
Washington, RCW 9A.76.020
(2001)......................................... App. 56

App. 1
________________
APPENDIX A
_________________

IN THE SUPREME COURT OF WASHINGTON
_____________________
CITY OF SHORELINE,
)
RESPONDENT,
)
)
v.
)
)
SOLOMON MCLEMORE, )
Petitioner.
)
_____________________ )

No. 95707-0
Filed APR 18 2019

Gonzalez, J.— This case involves a clash of
deeply significant public policies. As a modem
society, we condemn domestic violence and have
vested police with the power and duty to investigate
and to intervene. As a society governed by our
constitutions, there are limits on the State’s power
to punish speech, to demand an individual’s active
cooperation, or to intrude into a home.
Our homes hold a special place in our
constitutional jurisprudence. It is the first place
specifically called out in our constitution, and it is
called out to give it special protection. Under our
constitution, “[n]o person shall be disturbed in his
private affairs, or his home invaded, without

App. 2
authority of law.” CONST. art. I, § 7 (emphasis
added). “In no area is a citizen more entitled to his
privacy than in his or her home. For this reason, ‘the
closer officers come to intrusion into a dwelling, the
greater the constitutional protection’.” State v.
Young, 123 Wash.2d 173, 185, 867 P.2d 593 (1994)
(citation omitted) (quoting State v. Chrisman, 100
Wash.2d 814, 820, 676 P.2d 419 (1984)). Officers
must have a warrant or a well-established exception
to the warrant requirement before intruding into a
home. Id. at 181, 867 P.2d 593. Our constitutions
also rigorously protect speech, even obnoxious
speech. State v. E.J.J., 183 Wash.2d 497, 501, 354
P.3d 815 (2015).
Here, a bystander called 911 about a loud, latenight argument in a home. Police officers,
appropriately concerned about domestic violence,
went to that home to investigate. They heard an
argument and demanded entry. Solomon McLemore
and his girlfriend, Lisa,1 lived in that home, refused
to open their door, and told the officers to go away.
Instead, the officers broke down that door under a
well-established exception to the warrant
requirement: community caretaking. However,
when the officers found that no one was injured and
that there was no evidence of any other crime, they
arrested McLemore for obstruction of a law
enforcement officer. This arrest appeared to be
mostly based on McLemore’s belligerent refusal to
open his door. He was subsequently convicted of the
charge. We must decide whether, under the
We use only Lisa’s first name to avoid subjecting her to
unwanted publicity. No disrespect is intended.
1

App. 3
obstruction statute as properly limited to its
constitutional scope and the facts of this case, the
conviction may stand. It may not.
FACTS
Late one night, a bystander heard a
disturbance and called 911. Three Shoreline police
officers responded and heard the sounds of an
argument coming from an apartment above a dry
cleaner’s shop. Police heard a woman shouting, “
‘[Y]ou can’t leave me out here,’ ” “ ‘I’m going to call
the police,’ ” and “something along the lines of ‘I’m
reconsidering our relationship’.” Clerk’s Papers (CP)
at 149. The officers knocked on the door of the
apartment, rang the doorbell, announced they were
Shoreline police, and demanded to be let in. No one
in the apartment replied, but the sounds of the
argument stopped. Using amplification and much
profanity, the officers insisted they would break
down the door if they were not let in. McLemore told
them to leave. After several minutes of this, police
heard the sound of breaking glass. The officers
started to break down the door.
McLemore and Lisa lived together with their
six month old son in that apartment. The couple had
had a difficult night. McLemore had accidentally
broken a window, and Lisa was upset about having
to repair it. McLemore had told Lisa he would clean
up the glass but instead went to play pool with a
friend. When he came home at about one o’clock in
the morning, he and Lisa argued. Since their child
was asleep, they took their argument outside to a
balcony. McLemore claimed he accidentally locked

App. 4
Lisa outside on that balcony when he came in.
Minutes after he let Lisa back in, the police started
banging on their door. McLemore told the officers
that they were okay, that he was recording the
incident, and that they should leave. At McLemore’s
insistence, Lisa confirmed that she was fine and that
she also wanted the officers to leave. Instead,
rightfully concerned about domestic violence, the
officers broke down her door.
After the door was “completely destroyed,” CP
at 152, the officers entered with their guns drawn,
handcuffed McLemore, and put Lisa and McLemore
into separate police cars. Officers determined Lisa
was not injured. Lisa told the officers that the couple
had not opened the door because they were afraid
one of them would be arrested if they did. Officers
arrested McLemore for obstruction of a law
enforcement officer under RCW 9A.76.020. No other
charges were filed.
Before trial, McLemore moved to dismiss the
charge on the grounds the city had offered “no
evidence that McLemore willfully hindered or
delayed an officer’s lawful investigation as the law
does not require any duty of a person to act in a
warrantless search of their residence.” CP at 139.
The judge denied the motion, concluding that the
charges were sustainable under State v. Steen, 164
Wash.App. 789, 265 P.3d 901 (2011). The judge also
excluded any defense related to McLemore’s
assertion that the officers did not have the right to
enter without a warrant.

App. 5
In closing argument, the city stressed that
most of the elements were not in dispute. Instead,
the “element that gets the bulk of the argument ...
and the bulk of the scrutiny in this testimony was
did the defendant willfully hinder or delay or
obstruct the discharge of [officers’] duties.” CP at
468. The city characterized McLemore’s refusal to
open the door as a willful obstruction. Defense
counsel argued that “[it is] not McLemore’s job to
help” the police and that “he did nothing. He simply
sat in his house.” Id. at 478.
During deliberations, the jury sent out one
question: “Does a person have the legal obligation to
follow the police instructions, in this case?” Id. at 43.
The court responded, “[Y]ou have been provided with
the law in this case in the jury instructions.” Id. The
instructions, including the to-convict instruction,
mirrored the pattern jury instructions, and no
specific instruction on a citizen’s obligation to open
a door to a warrantless entry was included. See, e.g.,
id. at 59; 11A WASHINGTON PRACTICE:
WASHINGTON
PATTERN
JURY
INSTRUCTIONS: CRIMINAL 120.02, at 519 (4th
ed. 2016). McLemore was convicted.
McLemore appealed, first to the superior court,
then to the Court of Appeals, and finally here. We
granted review. City of Shoreline v. McLemore, 191
Wash.2d 1001, 422 P.3d 916 (2018).
ANALYSIS
We stress that we are not asked to determine
whether the officers’ forced entry in McLemore’s

App. 6
home was lawful. McLemore, wisely, does not
challenge the trial court’s conclusion that the
officers were exercising their community caretaking
function at the time. Based on this record, the
officers had the lawful power to enter McLemore’s
home to assess whether domestic violence had
occurred and to take appropriate action if it had. See
Danny v. Laidlaw Transit Servs., Inc., 165 Wash.2d
200, 208-19, 193 P.3d 128 (2008) (plurality opinion)
(surveying Washington’s public policy of combating
domestic violence); ch. 10.99 RCW (establishing that
domestic violence is a serious crime and setting forth
minimum standards for official responses).2
Analogously, officers have the statutory authority to
break into a home to make an arrest “if, after notice
of [their] office and purpose, [they] be refused
admittance.” RCW 10.31.040. It is undisputed that
the officers here responded appropriately and
lawfully to a potential domestic violence situation in
which both Lisa and the child reasonably appeared
in immediate danger.
But McLemore was not charged with a crime of
domestic violence. Instead, he was charged with
The dissent states that “everyone, including McLemore,
agrees that the officers responding to the domestic violence call
had the constitutional authority to demand entry pursuant to
the community caretaking exception to the warrant
requirement” and that “McLemore did have a duty to comply
with lawful police orders to open the door.” Dissent at 1, 8. We
respectfully disagree with this characterization of the case. We
agree that the officers had the constitutional authority to enter
the home pursuant to the community caretaking exception to
the warrant requirement. We do not agree that McLemore had
a duty to comply with the police’s demand to open the door.

2

App. 7
violating RCW 9A.76.020(1), which provides in
relevant part that “[a] person is guilty of obstructing
a law enforcement officer if the person willfully
hinders, delays, or obstructs any law enforcement
officer in the discharge of his or her official powers
or duties.” In effect, McLemore contends that this
statute cannot be constitutionally applied to his
inaction. “We review such constitutional challenges
de novo. In the context of the First Amendment, this
requires a review of the record to determine that the
conviction could not have been based only on
constitutionally protected speech.” E.J.J., 183
Wash.2d at 501, 354 P.3d 815 (citation omitted)
(citing State v. Abrams, 163 Wash.2d 277, 282, 178
P.3d 1021 (2008)); U.S. CONST. amend. I.
This court has long “noted that [obstruction]
statutes can ‘result in disturbing intrusions into an
individual’s right to privacy and can implicate other
rights specifically enumerated in the Bill of Rights.’
” State v. Williams, 171 Wash.2d 474, 481, 251 P.3d
877 (2011) (quoting State v. White, 97 Wash.2d 92,
97, 640 P.2d 1061 (1982)). “To save the obstruction
statute from being unconstitutionally overbroad in a
First Amendment setting, we have construed the
statute narrowly. Our cases have consistently
required conduct in order to establish obstruction of
an officer.” E.J.J., 183 Wash.2d at 501-02, 354 P.3d
815 (citing Williams, 171 Wash.2d at 485, 251 P.3d
877). We narrowly construe the obstruction statute
even when the parties are not directly raising a
constitutional challenge. Williams, 171 Wash.2d at
477-78, 251 P.3d 877.

App. 8
We use this narrow construction for two
reasons. First, we are required to interpret statutes
as constitutional, if possible, and our narrowing
construction accomplishes this task. See In re Pers.
Restraint of Matteson, 142 Wash.2d 298, 307, 12
P.3d 585 (2000) (quoting Addleman v. Bd. of Prison
Terms & Paroles, 107 Wash.2d 503, 510, 730 P.2d
1327 (1986)). We also limit the scope of this statute
to avoid chilling the exercise of constitutional rights.
See State v. Rupe, 101 Wash.2d 664, 705, 683 P.2d
571 (1984) (plurality opinion) (citing State v.
Frampton, 95 Wash.2d 469, 627 P.2d 922 (1981));
see also E.J.J., 183 Wash.2d at 501-02, 354 P.3d 815.
Criminalizing the refusal to open one’s own
door to a warrantless entry would be enormously
chilling and inconsistent with our deeply held
constitutional values. As the United States Supreme
Court observed:
From earliest days, the common law
drastically limited the authority of law
officers to break the door of a house to effect
an arrest. Such action invades the precious
interest of privacy summed up in the ancient
adage that a man’s house is his castle. As
early as the 13th Yearbook of Edward IV
(1461-1483), at folio 9, there is a recorded
holding that it was unlawful for the sheriff to
break the doors of a man’s house to arrest him
in a civil suit in debt or trespass, for the arrest
was then only for the private interest of a
party. Remarks attributed to William Pitt,
Earl of Chatham, on the occasion of debate in
Parliament on the searches incident to the

App. 9
enforcement of an excise on cider, eloquently
expressed the principle:
“The poorest man may in his cottage
bid defiance to all the forces of the
Crown. It may be frail; its roof may
shake; the wind may blow through it;
the storm may enter; the rain may
enter; but the King of England cannot
enter—all his force dares not cross the
threshold of the ruined tenement!”
Miller v. United States, 357 U.S. 301, 306-07,
78 S.Ct. 1190, 2 L.Ed.2d 1332 (1958) (footnotes
omitted) (quoting THE OXFORD DICTIONARY OF
QUOTATIONS 379 (2d ed. 1953)). Even under the
more limited protections afforded by the Fourth
Amendment than our own constitution, “[w]hen law
enforcement officers who are not armed with a
warrant knock on a door, they do no more than any
private citizen might do. And whether the person
who knocks on the door and requests the opportunity
to speak is a police officer or a private citizen, the
occupant has no obligation to open the door or to
speak.” Kentucky v. King, 563 U.S. 452, 469-70, 131
S.Ct. 1849, 179 L.Ed.2d 865 (2011) (citing Florida v.
Royer, 460 U.S. 491, 497-98, 103 S.Ct. 1319, 75
L.Ed.2d 229 (1983) (plurality opinion)); U.S.
CONST. amend. IV; see also United States v.
Prescott, 581 F.2d 1343, 1350-51 (9th Cir. 1978)
(holding the right to refuse a warrantless entry is
not a crime or evidence of a crime (citing Camara v.
Mun. Court, 387 U.S. 523, 528-29, 87 S.Ct. 1727, 18
L.Ed.2d 930 (1967); District of Columbia v. Little,
339 U.S. 1, 7, 70 S.Ct. 468, 94 L.Ed. 599 (1950))).

App. 10
Similarly, our Court of Appeals found the refusal to
allow an officer into a home without a warrant was
not sufficient to sustain an obstruction conviction.
State v. Bessette, 105 Wash.App. 793, 799, 21 P.3d
318 (2001). The officer had been pursuing a juvenile
who was spotted holding a beer bottle. Id.
Under the limited construction of the statute
required by our constitution, a defendant’s conduct
that amounts to passive delay will not sustain an
obstruction charge.3 As we ruled recently in a case
where a juvenile defendant refused to retreat into
his home while police were arresting his sister in the
front yard:
That E.J.J.’s behavior may have caused
a minor delay is of no import. Although the
officer’s request that E.J.J. return to his
home and close both doors might have
been an attempt for a more convenient
resolution of the situation, “[s]tates cannot
consistent[ ] with our Constitution abridge
those freedoms to obviate slight
inconveniences or annoyances.”
E.J.J., 183 Wash.2d at 506, 354 P.3d 815
(quoting Giboney v. Empire Storage & Ice Co., 336
U.S. 490, 501-02, 69 S.Ct. 684, 93 L.Ed. 834 (1949)).
Lack of cooperation does not become obstruction of
justice merely because it causes the police delay. “As
The dissent claims that “refusal to obey lawful orders of law
enforcement has always been deemed sufficient conduct to
support an obstruction conviction.” Dissent at 11. We have
never so held, and, under our limiting construction of the
obstruction statute, it cannot be.

3

App. 11
a general proposition, there is no obligation to
cooperate with the police.” State v. D.E.D., 200
Wash.App. 484, 494, 402 P.3d 851 (2017) (citing
State v. Budik, 173 Wash.2d 727, 272 P.3d 816
(2012)). “The duty imposed by the obstructing
statute is not to hinder or delay the police
investigation; there is no duty to cooperate.” Id. at
495, 402 P.3d 851 (citing State v. Holeman, 103
Wash.2d 426, 693 P.2d 89 (1985)).4 While
cooperation with the police might have been wise,
the failure to do so was not criminal under these
circumstances.
The city analogizes this to cases where officers
had a warrant or other court order. But the officers
here did not have a warrant or other court order. No
impartial magistrate authorized the intrusion.
These cases are not helpful to the city. See, e.g.,
State v. Miller, 74 Wash.App. 334, 873 P.2d 1197
(1994). The city also analogizes to cases where a
defendant actively resisted officers’ warrantless
entry. In State v. Line, the defendant physically
struggled with officers, ripping their clothing. 121
Haw. 74, 81, 214 P.3d 613 (2009). In Dolson v.
United States, the court stressed that “one has a
Fourth Amendment right to deny police officers and
other government officials a warrantless entry into
Indeed, the jury’s question during deliberation, “Does a
person have the legal obligation to follow the police
instructions, in this case?” touches on this vital principle. CP
at 43. We do not fault the judge for not answering it during
deliberations. But this case does turn on when a person has a
legal obligation to follow an officer’s directions.

4

(continued . . .)

App. 12
one’s home, and thus one’s assertion of this right
cannot serve as the basis for a criminal conviction or
evidence of a crime.” 948 A.2d 1193, 1201 (D.C. 2008)
(citing Camara, 387 U.S. at 540, 87 S.Ct. 1727;
Little, 339 U.S. at 7, 70 S.Ct. 468; Prescott, 581 F.2d
at 1350-51). The court declined to extend that
principle to locking and holding a gate closed against
an officer in pursuit. Id. at 1202.5 There was no
evidence here that McLemore locked the door to
exclude officers, held it closed, or physically resisted.
These cases are not helpful to the city either.
In contrast, in the vast majority of cases called
to our attention, courts have held that there is no
obligation to open a home to an officer’s warrantless
demand for entry. The city of Columbus, for
example, prosecuted a man who refused to open the
door to allow officers responding to a potential
domestic violence call to enter his home. City of
Columbus v. Michel, 55 Ohio App.2d 46, 47-48, 378
N.E.2d 1077 (1978). Officers spoke with the person
who made the call, saw broken glass, knocked for 7
to 10 minutes, and told the occupants to either let
them in or have their door broken down. Id. at 4647, 378 N.E.2d 1077. The court noted that the
officers were “justified in breaking open the door of
the apartment to determine whether anyone was
This, of course, is what distinguishes Dolson’s conduct from
McLemore’s. Dolson shut his gate, locked it, and held it shut to
keep out the police. Dolson, 948 A.2d at 1197. McLemore
refused to open an already-locked door. Because of Dolson’s
active resistance, he was not entitled to a passive resistance
instruction. Id. at 1201. McLemore did not resist, he simply did
not open the door. But see dissent at 16 (treating Dolson’s
active resistance as analogous).

5

App. 13
injured in the apartment.” Id. at 48, 378 N.E.2d
1077. But the “defendant’s failure to open the door
to the apartment is not made a crime” under the
ordinance. Id.; see also Beckom v. State, 286 Ga.App.
38, 41, 648 S.E.2d 656 (2007) (refusing to open the
door or answer the phone, “without more, does not
constitute obstruction of the police, even if it is the
police doing the knocking and ringing”); State v.
Berlow, 284 N.J.Super. 356, 364, 665 A.2d 404 (Law
Div. 1995) (purpose of both the Fourth Amendment
and the parallel provision of the New Jersey
Constitution “is to stop governmental intrusion at
the door. One cannot be penalized for passively
asserting that right”). Recently, the New Jersey
Supreme Court, on almost identical facts,
unanimously held failure to act was not obstruction.
State v. Fede, 202 A.3d 1281 (N.J.2019).
The one exception to these cases brought to our
attention by the city is Steen, 164 Wash.App. 789,
265 P.3d 901. Over a vigorous dissent, Steen held
that the failure to open the door and leave a travel
trailer when commanded to by an officer exercising
community caretaking functions can constitute
obstruction. Id. at 800, 265 P.3d 901.
But the Steen court relied heavily on case law
that involved motor vehicles, not homes. See id. at
800-02, 265 P.3d 901 (discussing State v. Contreras,
92 Wash.App. 307, 966 P.2d 915 (1998)). In
Contreras, police responded to a report of a possible
vehicle prowl and found Contreras sitting in the car.
Contreras, who seemed “ ‘out of it,’ ” did not raise his
hands, did not exit the vehicle, and gave only a first
name. 92 Wash.App. at 309-10, 966 P.2d 915.

App. 14
Contreras was arrested for (though not charged
with) obstruction of a law enforcement officer. Id. at
309, 966 P.2d 915. Contreras argued there was
insufficient grounds for the arrest because he merely
refused to speak to the officer. The court noted that
mere refusal to talk to an officer is insufficient
grounds to support an arrest for obstruction. But
“Contreras did more than merely refuse to talk. He
also disobeyed the officer’s orders to put his hands
up in view of [the officer], to exit the car, to keep his
hands on top of the car, and to provide his name.” Id.
at 316, 966 P.2d 915.
Not surprisingly, Contreras itself also relied
largely on cases involving motor vehicles. See
Contreras, 92 Wash.App. at 316-17, 966 P.2d 915
(citing State v. Hudson, 56 Wash.App. 490, 497-98,
784 P.2d 533 (1990); State v. Little, 116 Wash.2d
488, 497, 806 P.2d 749 (1991) (plurality opinion);
State v. Mendez, 88 Wash.App. 785, 792-93, 947 P.2d
256 (1997), rev’d, 137 Wash.2d 208, 970 P.2d 722
(1999); City of Sunnyside v. Wendt, 51 Wash.App.
846, 851-52, 755 P.2d 847 (1988)). Hudson, Mendez,
and Wendt all implicated statutes that require
drivers to cooperate with law enforcement. Little
was brought under a former version of the
obstruction statute that was significantly revised
after being repeatedly held unconstitutional. See
S.B. REP. ON S.B. 6138, 53d Leg., Reg. Sess. (Wash.
1994); White, 97 Wash.2d at 103, 640 P.2d 1061
(describing the previous version of the statute as
“flagrantly unconstitutional”). Washington law
imposes on drivers and witnesses to traffic accidents
a duty to cooperate with officers in many
circumstances. E.g., RCW 46.61.020, .021. While

App. 15
Washington law vests officers with the statutory
authority to break into a house under certain
circumstances, see, e.g., RCW 10.31.040, there is no
law requiring people to open their own doors to
officers seeking warrantless entry.
Location matters. A home is entitled to
constitutional protections that a moving vehicle is
not. See State v. Ferrier, 136 Wash.2d 103, 112, 960
P.2d 927 (1998). “ ‘[T]he closer officers come to
intrusion into a dwelling, the greater the
constitutional protection.’ ” Id. (internal quotation
marks omitted) (quoting Young, 123 Wash.2d at 185,
867 P.2d 593). To the extent Steen suggests it is
obstruction to not open the door to a home in
response to a warrantless knock, it is inconsistent
with Washington law and is overruled. See
Williams, 171 Wash.2d at 485, 251 P.3d 877; White,
97 Wash.2d at 97, 640 P.2d 1061.
Under the limited construction we are required
to give the obstruction statute to render it
constitutional, the city presented insufficient
evidence to sustain this conviction. Taken in the
light most favorable to the city, McLemore refused
to open the door, loudly insisted he had no obligation
to do so, and told Lisa to tell the officers she was
okay. None of this is punishable “conduct” under our
limiting construction of the obstruction statute.
Further, our review of the record leaves us with an
abiding concern the jury could have convicted on
speech alone. See E.J.J., 183 Wash.2d at 501, 354
P.3d 815 (citing Abrams, 163 Wash.2d at 282, 178
P.3d 1021). Much of the evidence focused on what
McLemore and the officers shouted at one another.

App. 16
There was no evidence presented that McLemore
closed his door to prevent the officers’ entry or
prevented Lisa from opening it. Accordingly, we
reverse.6
CONCLUSION
We hold the city presented insufficient evidence
to sustain McLemore's conviction and remand to the
trial court for further proceedings consistent with
this opinion.
s/ Gonzalez, J.
WE CONCUR:
s/ Fairhurst, C.J.
s/ Johnson, J.
s/ Gordon McCloud, J.

Given our disposition, we do not reach the remaining
arguments. We note in passing that it is questionable whether
a defendant can appeal the denial of a Knapstad motion after
the case has gone to trial. State v. Zakel, 61 Wash.App. 805,
811 n.3, 812 P.2d 512 (1991) (declining to review a denial of a
Knapstad motion after trial); State v. Knapstad, 107 Wash.2d
346, 729 P.2d 48 (1986); CrR 8.3(c)(3) (“A decision denying a
motion to dismiss under this rule is not subject to appeal under
RAP 2.2.”).

6

App. 17
STEPHENS, J. (dissenting)
In asking this court to overturn his conviction,
Solomon McLemore appeals broadly to privacy
rights, free speech rights, and the fact that
individuals owe no duty to assist law enforcement.
These appeals obscure the fact that everyone,
including McLemore, agrees the officers responding
to the domestic violence call had the constitutional
authority to demand entry pursuant to the
community caretaking exception to the warrant
requirement. And, settled precedent makes clear
that refusing to obey lawful commands to take a
specific action is conduct sufficient to support an
obstruction conviction. I disagree with the lead
opinion that McLemore’s conviction rests “mostly”
on speech and involves only passive “inaction” while
inside his home. Lead opinion at 1162, 1163–64,
1166–67.
I would continue our long tradition of holding
that individuals cannot willfully disobey law
enforcement
orders
without
facing
legal
consequences. Though no one owes an affirmative
obligation to assist the police, obstruction in
violation of RCW 9A.76.020 involves more than the
mere refusal to assist. On the night in question,
McLemore’s right to privacy in his home yielded to
the officers’ authority to demand entry in order to
verify the safety of the occupants inside. His
obstruction conviction rests not on pure speech or
mere inaction but on his willful conduct that
hindered, delayed, or obstructed law enforcement in
the discharge of their official duties. I would affirm

App. 18
the Court of Appeals and uphold McLemore’s
conviction.
ANALYSIS
This case arises in the context of officers
responding to a late-night domestic disturbance call.
Upon arriving outside McLemore’s building, officers
heard shouting and then the sound of glass
breaking. When they loudly knocked on the door, all
went silent. Clerk’s Papers (CP) at 304, 324, 362,
365. Despite being given several explanations as to
why officers were at his door and several chances to
comply, McLemore refused to open the door to allow
officers to verify the safety of McLemore’s girlfriend,
Lisa,1 and the couple’s child. Deputy Ben Emmons
testified:
[I gave v]ery basic commands, clear
and concise. This is Shoreline Police
Department, please open the door.
Shoreline Police Department, come and
talk to us. Shoreline Police Department,
let me see your face. Shoreline Police
Department, call 911. I want to give as
many options as possible. I know some
people are antsy about contacting the
police face to face so I took that into
account. If they wanted to call 911 that
was fine. If they want to peek over the
balcony that was fine too. I just wanted to
Consistent with the lead opinion, and to avoid subjecting her
to unwanted publicity, I refer to McLemore’s girlfriend solely
by her first name. No disrespect is intended.

1

App. 19
establish some kind of back and forth and
I was getting none.
CP at 364-65. When officers finally did get a
response, they once again clearly explained that
their intention was to verify the safety of all
occupants in the home:
So as we continued kind of in this
repetitive loop of conversation, at some
point a female comes to the door and he
said tell them you’re okay. We had been
telling him we need to make sure that
everyone is okay. We need to know that
everyone is okay because of what is going
on here. So the female at some point comes
to the door and he says, tell them you’re
okay. The female said I’m okay. A[t] this
point they both said something like we’re
scared or something of that nature. But we
tell them, we can’t just take your word for
it. You telling her to tell us you’re okay
isn’t enough for us to verify that you’re
okay. He could be forcing you to say this.
We have no idea. You’re behind a door and
we have no idea what’s going on. We need
to investigate.
CP at 330-31 (Test, of Deputy Jeremy Dallon).2
The record continues to detail repeated instances
The lead opinion downplays the fact that McLemore told Lisa
how to respond, see lead opinion at 1162 (“At McLemore’s
insistence, Lisa confirmed that she was fine and that she also
wanted the officers to leave.”), ultimately concluding there is
(continued . . .)

2

App. 20
where the officers make clear that they are giving a
lawful order to open the door so they can verify the
safety of the occupants inside. See CP at 302, 30405, 314-15, 324-31, 361-80. McLemore acknowledged
this fact in his testimony:
They said we’re coming in. We need to
come in. We need to make sure everybody
is okay. And I asked them all the relevant
questions as to why—legal entry. Do you
have anything to show me that shows me
you can come in?
....
... They tell me they don’t have to. They
don’t need to show me anything to get in.
“no evidence” he did anything to prevent her from opening the
door. Id. at 1166–67. The testimony and a recording of the
incident support a different conclusion. Deputy Dallon testified
that Lisa “sounded like she had been crying. ... [I]t didn’t sound
like a calm, normal individual.” CP at 331. He explained,
“[McLemore] saying tell them you’re okay seemed very
coercive”; officers “have the legal obligation to investigate to
make sure that someone who needs help isn’t being prevented
from getting help because of various reasons.” Id. On crossexamination, McLemore grudgingly acknowledged that he told
Lisa she needed to talk to the police and she needed to act mad.
CP at 440. He also told her that if she opened the door and went
outside, he was going to jail. CP at 441. Given this evidence,
even if McLemore’s own refusal to open the door might be
characterized as mere “inaction”—a dubious characterization
under our case law—evidence that he directed Lisa’s response
to the officers’ commands plainly supports the jury’s finding of
obstruction.
(continued . . .)

App. 21
And then I tell them, well then in that case
you need to go away.
CP at 414. McLemore acknowledged that the
officers even gave him the option to call 911 to verify
that they were the police. CP at 438; see also CP at
329 (“You can call the police, 911. They’ll tell you
that we’re the police, let us in.”) (Test, of Deputy
Dallon).
Though the lead opinion describes the issue in
this case as whether an individual has the duty to
assist a warrantless search or seizure, the officers
made no demand to search the home. See CP at 294381. The record makes clear that the officers wanted
to fulfill their statutory duty to verify Lisa’s safety
as
part
of
their
community
caretaking
3
responsibility.
McLemore’s conduct falls squarely within the
ambit of the obstruction statute, and his conviction
is fully consistent with constitutional guaranties of
privacy and free speech. Because there is no
RCW 10.99.030 imposes specific requirements on law
enforcement when responding to a domestic violence report.
For example, officers are required to “take a complete offense
report including the officer’s disposition of the case” and
“advise victims of all reasonable means to prevent further
abuse, including advising each person of the availability of a
shelter or other services in the community, and giving each
person immediate notice of the legal rights and remedies
available.” RCW 10.99.030(6)(b)-(7). The responding officers
testified that it would have been difficult to fulfill their
statutory duties in this instance without a visual verification
of Lisa’s safety and the ability to speak with her separate from
McLemore. CP at 330-31, 363, 371.

3

App. 22
constitutional infirmity in McLemore’s conviction, I
believe our judicial role requires us to apply the
statute the legislature has seen fit to adopt and the
executive branch has seen fit to enforce, and to
respect the jury’s verdict. To explain why, I first
address the statute, RCW 9A.76.020, and then
consider the privacy and free speech rights asserted
to excuse McLemore’s violation of the statute.
I. Sufficient Evidence Supported the Jury’s
Finding That McLemore Committed Obstruction
under RCW 9A.76.020
The statute under which McLemore was
convicted provides, “A person is guilty of obstructing
a law enforcement officer if the person willfully
hinders, delays, or obstructs any law enforcement
officer in the discharge of his or her official powers
or duties.” RCW 9A.76.020(1). It is undisputed that
the officers responding to the 911 call were
discharging their official powers or duties. Mot. for
Discr. Review at 3; lead opinion at 1163. Absent a
constitutional privilege, McLemore had a statutory
duty not to willfully hinder, delay, or obstruct law
enforcement.
The lead opinion frames this case in terms of a
“duty to cooperate” with law enforcement and
invokes the general rule that no such duty exists.
See lead opinion at 1164–65. In so doing, it
characterizes McLemore’s conduct as involving only
“passive delay” and observes that behavior causing
minor delay or inconvenience does not amount to
obstruction. Id. at 1164–65 (quoting State v. E.J.J.,
183 Wash.2d 497, 506, 354 P.3d 815 (2015)). I believe

App. 23
this misstates both the facts of this case and the
valid reach of the obstruction statute. While
individuals interacting with the police owe no
affirmative duty to cooperate, it is well recognized
they may not engage in conduct that interferes in
specific ways with law enforcement officers’
discharge of their powers or duties. See State v.
D.E.D., 200 Wash.App. 484, 494-95, 402 P.3d 851
(2017) (recognizing valid reach of obstruction statute
despite no general obligation to cooperate with a
police investigation); State v. Steen, 164 Wash.App.
789, 802 n.8, 265 P.3d 901 (2011) (recognizing
obstruction statute does not criminalize a “citizen’s
mere refusal to assist police officers performing their
community caretaking duties”). Hindering or
causing material delay in lawful police efforts is
punishable as obstruction. See D.E.D., 200
Wash.App. at 495, 402 P.3d 851 (describing
examples of obstruction: interfering in the arrest of
another, refusing to obey commands designed to
control the scene, and failing to obey commands to
exit a car and keep hands in sight).
In D.E.D., the Court of Appeals overturned an
obstruction conviction because the charged conduct
involved only “[p]assive resistance” to an unlawful
arrest. 200 Wash.App. at 496, 402 P.3d 851. Central
to the reasoning in D.E.D. was the fact that a
separate
resisting
arrest
statute
(RCW
9A.76.040(1)) imposed a duty not to resist only in
situations of a lawful arrest and the defendant’s
arrest was plainly unlawful. Id. Under the
obstruction statute, the court held that D.E.D. did
not “hinder or obstruct the officer since he had no

App. 24
obligation to cooperate with the officer.” Id.4 The
court cautioned against extending its narrow
holding beyond the context of “[p]assive resistance
consistent with the lack of a duty to cooperate.” Id.
Unlike the juvenile in D.E.D., McLemore did
have the duty to comply with lawful police orders to
open the door and allow officers to verify Lisa’s
safety. Describing his refusal to open the door in this
context as akin to D.E.D.’s “passive resistance”
requires ignoring that McLemore testified he made
an intentional—found to be willful—decision to
disobey a direct, lawful order. I recognize that it may
be difficult in some situations to distinguish between
an affirmative duty to cooperate and a duty not to
hinder or delay police, but this is not one of them.

This is not to say that individuals may violate unlawful police
commands without legal consequences. The court in D.E.D.
surveyed precedent recognizing that a person “cannot respond
to police illegality by performing a criminal act in return.” 200
Wash.App. at 492, 402 P.3d 851; see also State v. Holeman, 103
Wash.2d 426, 693 P.2d 89 (1985) (illegality of arrest did not
justify hindering officers). The main rationale for this rule is
public safety: the right to be free from illegal police conduct
“can be protected and vindicated through legal processes,
whereas loss of life or serious physical injury cannot be
repaired in the courtroom.” State v. Westlund, 13 Wash.App.
460,467, 536 P.2d 20 (1975); see also United States v. Pryor, 32
F.3d 1192, 1195 (7th Cir. 1994) (stating the “indignity and
inconvenience” of an improper arrest is less serious than
injuries “engendered by encouraging suspects to make their
own snap judgments about the legality of official demands”);
State v. Hatton, 116 Ariz. 142,147-48, 568 P.2d 1040 (1977) (“If
resistance to an arrest or a search made under the color of law
is allowed, violence is not only invited but can be expected.”).
4

App. 25
Indeed, the facts of this case align with the
cases the court in D.E.D. was careful to distinguish.
200 Wash.App. at 495, 402 P.3d 851; see State v.
Little, 116 Wash.2d 488, 498, 806 P.2d 749 (1991)
(plurality opinion) (flight from officers and refusal to
stop when ordered to do so constituted obstruction of
a public servant); Steen, 164 Wash.App. at 802, 265
P.3d 901 (refusal to open trailer door and exit with
hands up held punishable under the obstruction
statute); State v. Contreras, 92 Wash.App. 307, 31617, 966 P.2d 915 (1998) (refusal to comply with
orders to keep hands in view, exit the vehicle, and
keep hands on top of the car supported obstruction
conviction). The lead opinion recognizes the affinity
between this case and these prior authorities, and
its only response is to overrule Steen and to
distinguish any case involving a car or a prior
version of the obstruction statute. Lead opinion at
1165–66. This approach does not withstand
scrutiny.
The lead opinion’s dismissal of Steen appears to
rest solely on the fact that Steen “relied heavily on
case law that involved motor vehicles, not homes.”
Id. at 1166 (citing Contreras, 92 Wash.App. 307, 966
P.2d
915).
This
undeveloped
analysis
misapprehends the key distinction in Washington
law that is explained in Steen—between the duty to
follow lawful orders given by law enforcement as
opposed to no duty to assist with an unlawful arrest.
Compare Steen, 164 Wash.App. at 801, 265 P.3d 901
(duty to obey officer’s commands), with D.E.D., 200
Wash.App. at 496, 402 P.3d 851 (no duty to
cooperate in unlawful arrest). Far from supporting
an automobile/home distinction, Steen explicitly

App. 26
states that it is following the precedent set in
Contreras that “an individual’s failure to follow
police officers’ lawful orders authorized the
individual’s warrantless arrest for obstruction.”
Steen, 164 Wash.App. at 801, 265 P.3d 901. Just as
failure to comply with officer’s demands to keep his
hands in view and exit the vehicle constituted
conduct for the purposes of the obstruction statute
under Contreras, so too “refusal to open the trailer
door and exit the trailer with his hands up”
constituted conduct in Steen sufficient to support an
obstruction conviction. Id. at 801-02, 265 P.3d 901.
The decision in Steen is not an outlier but instead a
correct application of our precedent recognizing that
failure to obey a lawful order constitutes conduct
sufficient for an obstruction conviction.
That precedent includes this court’s decisions
in Williams and Little. See State v. Williams, 171
Wash.2d 474, 251 P.3d 877 (2011); Little, 116
Wash.2d at 488, 806 P.2d 749. In Williams, we
traced the development of obstruction statutes and
free speech protections and narrowly construed
RCW 9A.76.020 to require some conduct in addition
to making false statements in order to support a
conviction. 171 Wash.2d at 481-82, 251 P.3d 877. In
the course of our analysis, we cited Contreras
(“refusal to put hands up in view, to exit the car, and
to keep hands on top of car as instructed and
providing a false name”) as an example of what
constitutes conduct as opposed to pure speech. Id. at
483, 251 P.3d 877. In Little, which involved a Terry5
Terry v. Ohio, 392 U.S. 1, 88 S.Ct. 1868, 20 L.Ed.2d 889
(1968).

5

App. 27
stop at an apartment complex, we recognized that
the willful refusal to obey direct police orders
violated the obstruction statute. 116 Wash.2d at
498, 806 P.2d 749 (“flight from the officers and
refusal to stop when ordered to do so constituted an
obstruction of a public servant”).
The lead opinion attempts to minimize Little as
having been decided under a former version of the
obstruction statute, which we later declared
unconstitutional. Lead opinion at 1166. The aspect
of the statute we invalidated, however, involved a
requirement that individuals stop and identify
themselves when directed by law enforcement. See
State v. White, 97 Wash.2d 92, 96-97, 640 P.2d 1061
(1982). As recently explained in E.J.J., the
constitutional problem with the former statute was
a provision that forced individuals to speak up and
provide information to law enforcement, i.e., it
punished pure speech. 183 Wash.2d at 502, 354 P.3d
815. But, we recognized that our decision in White
“left intact subsection (3) [of former RCW 9A.76.020
(1975) ], which made it a misdemeanor to ‘
“knowingly hinder, delay, or obstruct” ’ a public
servant.” Id. (quoting White, 97 Wash.2d at 96, 640
P.2d 1061 (quoting former RCW 9A.76.020)). While
the wording of the obstruction statute has evolved to
recognize that speech alone cannot support an
obstruction conviction, see Williams, 171 Wash.2d at
481-83, 251 P.3d 877, the refusal to obey lawful
orders of law enforcement has always been deemed
sufficient conduct to support an obstruction
conviction when it hinders, delays, or obstructs the
performance of official duties. See id.; Little, 116
Wash.2d at 498, 806 P.2d 749; Contreras, 92

App. 28
Wash.App. at 317, 966 P.2d 915; Steen, 164
Wash.App. at 802, 265 P.3d 901. As a result, the
relevant question in this case is not whether
McLemore was in his home or in a vehicle, as the
lead opinion would suggest. Instead, the relevant
question, according to precedent, is whether
McLemore’s refusal to obey lawful police orders
hindered, delayed, or obstructed the officers in the
performance of their duties.
Sufficient evidence exists to support
McLemore’s conviction for obstruction based on his
willful failure to obey a lawful police order to open
the door (or to allow Lisa to open the door) in order
for officers to verify the safety of the occupants
inside the home. It cannot be denied that
McLemore’s actions had specific consequences that
both hindered and delayed the officers from
performing their community caretaking duties.
Officers spent several minutes trying to convince
McLemore or Lisa to open the door; then, after
hearing
glass
shattering,
they
attempted
unsuccessfully to break the door or lock with a
pickax, before finally having the Shoreline Fire
Department arrive with breaching tools to help
police forcibly enter the home. All essential elements
of the obstruction statute are supported by evidence
sufficient to sustain McLemore’s conviction, and we
should not disturb it unless McLemore can
demonstrate that his conduct was constitutionally
privileged. As discussed below, he has not
demonstrated that his conviction violates either his
privacy rights or his free speech rights.

App. 29
II. McLemore’s Obstruction Conviction Does
Not Offend His Privacy Rights under the Fourth
Amendment and Article I, Section 7 Because the
Officers Acted with Authority of Law
Article I, section 7 of the Washington
Constitution provides that “[n]o person shall be
disturbed in his private affairs, or his home invaded,
without authority of law.” While the gold standard
for authority of law is a judicially issued warrant,
“there are a few ‘ “jealously and carefully drawn”
exceptions’ to the warrant requirement which
‘provide for those cases where the societal costs of
obtaining a warrant, such as danger to law officers
or the risk of loss or destruction of evidence,
outweigh the reasons for prior recourse to a neutral
magistrate.’ ” State v. Houser, 95 Wash.2d 143, 149,
622 P.2d 1218 (1980) (quoting Arkansas v. Sanders,
442 U.S. 753, 759, 99 S.Ct. 2586, 61 L.Ed.2d 235
(1979)). Relevant here, the community caretaking
exception “allows for the limited invasion of
constitutionally protected privacy rights when it is
necessary for police officers to render aid or
assistance or when making routine checks on health
and safety.” State v. Thompson, 151 Wash.2d 793,
802, 92 P.3d 228 (2004). Once the community
caretaking exception applies, police officers are
allowed to conduct a noncriminal investigation, “so
long as it is necessary and strictly relevant to
performance of the community caretaking function.”
State v. Kinzy, 141 Wash.2d 373, 388, 5 P.3d 668
(2000).
Both McLemore and the lead opinion
acknowledge that the officers responding to the 911

App. 30
call had authority of law under the community
caretaking warrant exception. See Mot. for Discr.
Review 8-16; lead opinion at 1163 (“McLemore,
wisely, does not challenge the trial court’s conclusion
that the officers were exercising their community
caretaking function at the time.”). “Police officers
responding to a domestic violence report have a duty
to ensure the present and continued safety and wellbeing of the occupants” of a home. State v. Raines,
55 Wash.App. 459, 465, 778 P.2d 538 (1989), review
denied, 113 Wash.2d 1036, 785 P.2d 825 (1990). This
duty is recognized in statute. RCW 10.99.030(5)
provides that “[t]he primary duty of peace officers,
when responding to a domestic violence situation, is
to enforce the laws allegedly violated and to protect
the complaining party.” In addition, the legislature
has decided that it is not enough for a police officer
to simply observe the safety of a potential victim;
even in cases where the officer has “not exercised
arrest powers or decided to initiate criminal
proceedings by citation or otherwise,” officers are
still required to “notify the victim of the victim’s
right to initiate a criminal proceeding” and advise all
parties of the importance of preserving evidence.
RCW 10.99.030(6)(a). Bearing these requirements in
mind, the lead opinion concedes that “[i]t is
undisputed that the officers here responded
appropriately and lawfully to a potential domestic
violence situation in which both Lisa and the child
reasonably appeared in immediate danger.” Lead
opinion at 1163.

App. 31
One is left to wonder why, then, the lead
opinion embarks on a detailed privacy analysis
under the Fourth Amendment of the United States
and article I, section 7. Its eloquent exposition of an
individual’s right to keep the government from
crossing the threshold to his home presupposes a
different set of facts—officers seeking a warrantless
entry without constitutional authority of law. See
lead opinion at 1164–65. Here, the officers correctly
explained to McLemore that they did not need a
warrant to justify the limited intrusion they were
seeking. The lead opinion seems to suggest that
McLemore’s refusal to open the door would be
viewed differently had the officers held an actual
warrant instead of authority of law under a warrant
exception. Lead opinion at 1165. But, it does not
explain why. Certainly, from the perspective of a
person refusing an officer’s command to open a door,
there is no reason why the officer’s assertion that he
has a warrant would be any more persuasive than
his assertion that he has other authority of law.
Moreover, neither the chilling of privacy rights that
the lead opinion is concerned about nor the
constitutional authority of law the officers possess
varies between the warrant scenario and the
warrant exception scenario. The case law the lead
opinion cites speaks to a privacy right McLemore did
not possess here—the right to refuse entry to officers
acting entirely without authority of law under either
a warrant or a recognized warrant exception.
In attempting to create legal justification for
McLemore’s actions, the lead opinion misreads
Dolson v. United States, 948 A.2d 1193, 1201 (D.C.
2008). Lead opinion at 1165. While Dolson explains

App. 32
that individuals have a Fourth Amendment right to
deny police officers warrantless entry into a home,
Dolson makes clear that “[t]his right to deny entry
to a warrantless officer is not unlimited, however,
despite the constitutional right involved.” Dolson,
948 A.2d at 1201. It provides no solace in
McLemore’s case because, even absent authority of
law under an exception to the warrant requirement,
Dolson concludes that “just as no one has the right
to resist an unlawful arrest, no one has the right to
resist an unlawful entry to make an arrest.” Id.
(footnote omitted). This holding is consistent with
the precedent noted previously, recognizing that a
person’s recourse to unlawful police activity is
through a court action, not self-help.
Simply stated, McLemore’s conduct cannot be
excused on the basis of a nonexistent privacy right.
His right to deny the officers entry to his home
necessarily yields to valid authority of law, under a
warrant exception just as surely as under a warrant.
While the lead opinion is correct that McLemore’s
privacy in his home is entitled to greater
constitutional protection than a person’s privacy in
a vehicle or on the street, the greater weight of the
privacy interest has no bearing on the question
before us. Heightened privacy protections in the
home affect the court’s determination as to when
authority of law exists to justify an intrusion. But
regardless of whether individuals are in a home, in
a vehicle, or on the street, once they receive a lawful
order from law enforcement, they have a statutory
duty to comply. Because all parties agree that
McLemore received a lawful order from the officers,
we cannot excuse his willful refusal to comply with

App. 33
this order simply because it involved opening the
door to his home.
III. McLemore’s Obstruction Conviction Is
Consistent with Free Speech Protections Because It
Does Not Rest on “Speech Alone”
Having established that McLemore had no
privacy-based right to disobey lawful police
commands and that his refusal to open the door is
punishable under the obstruction statute, I turn to
the remaining proposition: that McLemore’s
conviction rests purely on speech rather than
conduct. To avoid constitutional infirmities,
Washington law requires “conduct in addition to
pure speech in order to establish obstruction of an
officer.” Williams, 171 Wash.2d at 485-86, 251 P.3d
877; see also E.J.J., 183 Wash.2d at 502, 354 P.3d
815 (“a conviction for obstruction may not be based
solely on an individual’s speech because the speech
itself is constitutionally protected”).
Consistent with prior case law, McLemore’s
actions constituted punishable conduct and his
conviction did not rest on “speech alone.” E.J.J., 183
Wash.2d at 503, 354 P.3d 815. His conduct included
willfully and repeatedly refusing to open the door, as
well as directing Lisa’s response to the officers’
commands, supporting a jury inference that he
prevented her from opening the door. Contrary to
the lead opinion’s view, it is not enough to observe
that “[m]uch of the evidence focused on what
McLemore and the officers shouted at one another.”
Lead opinion at 1167. The cases that have
invalidated obstruction convictions on free speech

App. 34
grounds all involve speech alone without sufficient
evidence of accompanying conduct. In State v.
Williamson, for example, the defendant was charged
with obstruction for falsely telling police his name
was “ ‘Christopher Columbus.’ ” 84 Wash.App. 37,
45, 924 P.2d 960 (1996). Similarly, in Williams, the
defendant was convicted for giving a false name to
police during a traffic stop. 171 Wash.2d at 476, 251
P.3d 877. In E.J.J., we reviewed our state and
related federal precedent imposing free speech
limits on obstruction convictions and vacated a
juvenile adjudication where there was “insufficient
evidence of conduct,” 183 Wash.2d at 506, 354 P.3d
815, and where we could not “be certain that E.J.J.’s
conviction was not based on his speech alone,” Id. at
508, 354 P.3d 815. Here, in contrast, McLemore
plainly engaged in conduct in addition to speech, and
there is no constitutional infirmity when both speech
and conduct are present. See Williams, 171 Wash.2d
at 477-78, 251 P.3d 877; Little, 116 Wash.2d at 498,
806 P.2d 749; E.J.J., 183 Wash.2d at 502, 354 P.3d
815.
Without doubt, our precedent confirms that
obstruction statutes may be constitutionally applied
to punish individuals for willful conduct in refusing
to obey law enforcement directives when such
conduct hinders, delays, or obstructs the
performance of official duties—even when speech is
also involved. Such punishment under the
obstruction statute is wholly consistent with
constitutional constraints because it does not rest on
“speech alone.” E.J.J., 183 Wash.2d at 503, 354 P.3d
815; see also Williams, 171 Wash.2d at 485, 251 P.3d
877 (“We hew to our jurisprudential history of

App. 35
requiring conduct in addition to pure speech in order
to establish obstruction of an officer.”). As discussed
above, the metaphysical distinction the lead opinion
draws between action and inaction is nowhere to be
found in our precedent. When a law enforcement
officer tells a person to “put your hands up” or “open
the door,” the willful refusal to obey this command
constitutes conduct—and such conduct violates
RCW 9A.76.020.
CONCLUSION
Thankfully, in this case there was no physical
harm to any of the parties involved. But recognizing
the sort of “privilege to obstruct” that McLemore
seeks will encourage individuals to “make their own
snap judgments about the legality of official
demands,” Pryor, 32 F.3d at 1195, and “violence is
not only invited but can be expected.” Hatton, 116
Ariz. at 148, 568 P.2d 1040. There is no precedent
that supports recognizing this privilege and no
constitutional privacy or free speech rights at issue
here that justify it. While reasonable minds might
disagree about whether the officers or the prosecutor
were overzealous in charging McLemore with
obstruction or even whether the legislature should
criminalize the refusal to obey police orders to open
one’s door, courts must leave those decisions to other
branches of government. Our judicial role is
constrained to invalidating arrest and prosecution
decisions only when they result in constitutional
violations. Because McLemore’s conviction does not
violate his constitutional rights, I would affirm the
Court of Appeals and uphold his conviction.

App. 36
s/ Stephens, J.
s/ Owens, J.
s/ Yu, J.
s/ Wiggins, J.

App. 37
________________
APPENDIX B
_________________
[FILED APRIL 19, 2019 WASHINGTON STATE
SUPREME COURT]
IN THE SUPREME COURT OF WASHINGTON
CITY OF SHORELINE,
RESPONDENT,

)
)
)
v.
)
)
SOLOMON MCLEMORE, )
PETITIONER,
)
_____________________ )

No. 95707-0
ORDER
AMENDING
OPINION

It is hereby ordered that that the lead opinion
of Gonzalez, J., filed April 18, 2019 in the above
entitled case is changed as indicated below.
On page 17, line 2 of the slip opinion, beginning
with "We", strike all material down to and including
"opinion." on line 3 and insert:
We in the lead opinion would hold the city
presented insufficient evidence to sustain
McLemore's conviction and remand to the trial
court for further proceedings consistent with this
opinion. However, we recognize this opinion has
garnered only four signatures. "Therefore, there

App. 38
being no majority for the reversal of the judgment
of the trial court, it necessarily stands affirmed,
and the order of this court is that the judgment
appealed from be and it is hereby affirmed."
Peterson v. City of Tacoma. 139 Wash. 313, 313,
246 P. 944 (1926).
DATED this 19th day of April, 2019.
s/ Farihurst, CJ
Chief Justice
Approved:
s/ Gonzalez, J.

App. 39
________________
APPENDIX C
_________________
[FILED MAY 30, 2019 WASHINGTON STATE
SUPREME COURT]

IN THE SUPREME COURT OF WASHINGTON
CITY OF SHORELINE,
RESPONDENT,

)
)
)
v.
)
)
SOLOMON MCLEMORE, )
PETITIONER,
)
_____________________ )

No. 95707-0
ORDER
AMENDING
OPINION

It is hereby ordered that the dissenting opinion
of Stephens, J., filed April 18,2019, in the above
entitled case is amended as indicated below.
On page 2, line 7 of the slip opinion, after
"would" strike "affirm the Court of
Appeals and".
On page 20, beginning on line 1 of the slip
opinion, after "would" strike "affirm the Court of
Appeals and".

App. 40
DATED this 30th day of May, 2019.
s/ Fairhurst, C.J.
Chief Justice
Approved:
s/ Wiggins, J.
s/ Owens, J.
s/ Stephens, J.
s/ Yu, J.

App. 41
________________
APPENDIX D
_________________
[FILED May 30, 2019 WASHINGTON STATE
SUPREME COURT]
THE SUPREME COURT OF WASHINGTON
CITY OF SHORELINE,
RESPONDENT,

) ORDER DENYING
)
MOTION FOR
) RECONSIDERATION
) AND MOTION FOR
v.
)
CLARIFICATION
)
)
No. 95707-0
SOLOMON MCLEMORE, )
PETITIONER,
) Court of Appeal No.
)
77094-2-I
)
) King County No.
_____________________ ) 16-1-07811-2 SEA
The Court (Justice Madsen did not sit)
considered
Petitioner's
"MOTION
FOR
RECONSIDERATION TO THE WASHINGTON
STATE SUPREME COURT" and "RESPONDENT'S
MOTION TO CLARIFY OPINION".
Now, therefore, it is hereby
ORDERED:

App. 42
That Petitioner Solomon McLemore's motion
for reconsideration is unanimously denied.
Respondent City of Shoreline's motion to clarify is
denied by majority.
DATED at Olympia, Washington this 30th day of
May, 2018[sic].
For the Court
s/Fairhurst, C.J.
CHIEF JUSTICE

App. 43
________________
APPENDIX E
_________________
CITY VS MCLEMORE
CASE # 616010940
[FILED AUG 17, 2016 KCDC – West Division
Shoreline Courthouse]
CT FINDS BASED ON UNDISPUTED FACTS AND
CASE OF ST v STEEN 164 WN.App. 789 THAT
THE KNAPSTAD MOTION IS HEREBY DENIED.
FACTS CONSIDERED MOST FAVORABLY TO
THE NON-MOVING PARY INCLUDE:
RESIDENTIAL NATURE OF CALL
TIME (2AM) OF CALL
TIME (3/1/16) OF YEAR ie. COLD
WOMAN YELLING SHE IS LOCKED OUT AND
WILL “CALL THE POLICE”
OFFICERS
HEARING
BREAKING (2X’s) +

ARGUING,

GLASS

DELAY NEED TO CALL SHORELINE FIRE FOR
TOOLS TO BREAK IN THE RESIDENCE ALL
MAKE
THE
COMMUNITY
CARETAKING
FUNCTION
AN
EXCEPTION
TO
4th
AMENDMENT PRIVACY CONSIDERATIONS.

App. 44
8/17/2016
s/ Douglas J. Smith, Judge

App. 45
________________
APPENDIX F
_________________
[FILED KING COUNT, WASHINGTON JUNE 02,
2017 SUPERIOR COURT CLERK DEBRA
BAILEY TRAIL DEPUTY]
SUPERIOR COURT OF THE STATE OF
WASHINGTON
COUNTY OF KING
STATE OF WASHINGTON,)
Appellant,
)
)
v.
)
)
SOLOMON MCLEMORE, )
RESPONDENT,
)
_____________________ )

NO. 16-1-07891-3 SEA
DECISION ON RALJ
APPEAL
CLERK’S ACTION
REQUIRED

This appeal came on regularly for oral
argument June 2, 2017 pursuant to RALJ 8.3, before
the undersigned Judge of the above-entitled court
and after reviewing the record on appeal and
considering the written and oral argument of the
parties, the court holds the following:
Reasoning Regarding Assignment of Error:
1) Defendant has not established that the Court
erred in denying the Knapstad motion. The evidence
was sufficient to support a prima facie showing that

App. 46
the Defendant committed the crime of obstructing
pursuant to State v. Steen, 164 Wn. App. 789 (2011).
2) Further the evidence was sufficient to find
beyond reasonable doubt the Defendant’s guilt.
3) The trial court did not abuse its discretion in
suppressing evidence of the Defendant’s belief he
was exercising a const. right as it was irrelevant and
not impactful on the elements of the crime.
IT IS HERBY ORDERED that the cause is:
Affirmed; COSTS Waived
REMANDED to King County District Court for
further proceedings, in accordance with the above
decision and that the Superior Court Clerk is
directed to release any bonds to the Lower Court
after assessing statutory Clerk’s fees and costs.
DATED: 6/2/2017
s/Steven G. Rosen
Judge
s/ Carmen McDonald
Counsel for Respondent
Approved as to form:
s/David Iannotti 37542
Counsel for Appellant

App. 47
________________
APPENDIX G
_________________
THE COURT OF APPEALS
OF THE
STATE OF WASHINGTON
November 29, 2017
CASE #: 77094-2-I
CITY OF SHORELINE, RESPONDENT
SOLOMON MCLEMORE, PETITIONER

V.

The following notation ruling by Commissioner
Mary Neel of the Court was entered on November
28, 2017, regarding petitioner's motion for
discretionary review (RALJ):
“Solomon McLemore seeks discretionary
review of the superior court decision on RALJ appeal
affirming his conviction for obstructing a law
enforcement officer. Review is denied.
Mr. McLemore was charged with obstruction
based on an incident in the early morning hours of
March 1, 2017. Three police officers responded to a
report of a disturbance at an apartment building.
When the officers arrived, the person who called 911
met them and said that he had heard a loud verbal
argument and screaming coming from a nearby
area. The officers heard a woman yelling things like,
“You can’t leave me out here,” “I’m going to call 911
or call the police,” “Let me go,” and “I’m
reconsidering our relationship.” The officers located

App. 48
the apartment where the sound was coming from.
They began knocking on the door, ringing the
doorbell, and announcing they were Shoreline
Police. The argument stopped, and no one
responded. After eight minutes of knocking, ringing,
and announcing, one officer shined a spotlight on the
apartment balcony. For the next eight minutes or so,
the officer spoke through a public address system,
repeating that he was with Shoreline Police and that
he needed to speak with the occupants to make sure
everything was okay. The officers were unsuccessful
in obtaining a phone number for the apartment. The
officers twice heard breaking/shattering glass in the
space of less than a minute. The officers contacted
the fire department to bring tools to break down the
door. As the officers began working on the door, they
continued saying that they needed to visually
confirm the woman’s safety. Mr. McLemore spoke to
the officers through the closed door, repeatedly
saying that he did not have to let them in, they were
violating his civil rights, and they needed a warrant.
The officers heard Mr. McLemore instruct the
woman to tell the police she was okay. She did so,
and also said she was holding a baby. Once the door
was breached, the officers went in and arrested Mr.
McLemore for obstruction. Mr. McLemore’s
girlfriend confirmed that she was fine, stating that
Mr. McLemore broke the glass out of anger. After
interviewing Mr. McLemore and his girlfriend, the
officers determined that no other crimes had been
committed.
Mr. McLemore was charged with
obstructing in violation of RCW 9A.76.020:

App. 49
A person is guilty of obstructing a law
enforcement officer if the person willfully
hinders, delays, or obstructs any law
enforcement officer in the discharge of his or
her official powers or duties.
Mr. McLemore filed a motion to dismiss,
arguing that he could not be convicted for exercising
his right to be free of a warrantless search. He
argued there was no evidence he did anything
beyond not unlocking the door, i.e., there was no
evidence he barricaded the door, locked additional
doors, hid from the officers, or the like. See State v.
Knapstad, 107 Wn.2d 346, 251-53, 729 P.2d 48
(1986) (trial court may dismiss the charge if the
State’s pleadings are insufficient to raise a jury issue
on all elements of the charge; the defense is entitled
to dismissal if, viewing the evidence and reasonable
inferences in the light most favorable to the State,
there is insufficient evidence to prove every
element).
The trial court denied the motion under the
authority of State v. Steen, 164 Wn. App. 789, 265
P.3d 901 (2011). The court applied the community
caretaking exception to the warrant requirement,
relying on the residential nature of the call, the time
of night (2:00 a.m.), the time of year (cold weather),
the woman yelling she was locked out and would call
the police, and hearing glass breaking.
The case was tried to a jury. The trial court
granted the City’s motion to exclude any reference to
the fact that the officers did not have a warrant. The
court did not allow Mr. McLemore to play a video of
the incident because it included Mr. McLemore

App. 50
demanding a search warrant. The jury did hear the
part of an audio recording in which Mr. McLemore
apparently acknowledged hearing the police tell him
to open the door so they could check on the
occupants. The jury returned a verdict of guilty.
Mr. McLemore appealed to the superior
court, which affirmed:
(1) Defendant has not established that the
court erred in denying the Knapstad motion.
The evidence was sufficient to support a
prima facie showing that the defendant
committed the crime of obstructing pursuant
to State v. Steen, 164 Wn. App. 789 (2011). (2)
Further the evidence was sufficient to find
beyond a reasonable doubt the defendant’s
guilt. (3) The trial court did not abuse its
discretion in suppressing evidence of the
defendant’s belief he was exercising a
const[tituional] right as it was irrelevant
evidence and not impactful on the elements of
the crime.
Discretionary review of a superior court
decision entered in a proceeding to review a decision
of a court of limited jurisdiction will be accepted
only:
(1) If the decision of the superior court is
in conflict with an [appellate] decision; or
(2) If a significant question
[constitutional] law is involved; or

of

(3) If the decision involves an issue of
public interest which should be determined by
an appellate court; or

App. 51
(4) If the superior court has so far departed
from the accepted and usual course of judicial
proceedings, or so far sanctioned such a
departure by the court of limited jurisdiction,
as to call for review by the appellate court.
Mr. McLemore seeks discretionary review
under RAP 2.3(d)(2), (3), and (4). He argues that he
is raising an issue of first impression under
Washington law, which he characterizes as: whether
a person exercising his rights under the 4th
Amendment and Article I, section 7 can be found
guilty of obstructing for not opening a door to his
home for a warrantless search. He argues that there
are federal and out of state cases that support his
argument that a person’s passive refusal to consent
to a warrantless search is privileged conduct that
cannot be considered evidence of obstruction. See
Motion for Discretionary Review at 9-13. He argues
that Washington law requires evidence of some
conduct in order to establish obstruction.
Washington courts require some conduct in
addition to pure speech in order to establish
obstruction of an officer. The requirement addresses
the concern that police could use the obstruction
statute to detain and arrest a person based solely on
his speech. State v. E.J.J., 183 Wn.2d 497, 502-04,
354 P.3d 815 (2015); State v. Williams, 171 Wn.2d
474, 478, 251 P.3d 877 (2011). The present case is
not one in which Mr. McLemore was charged and
convicted of obstruction based solely on speech.
Nor is this a case in which police made a
warrantless entry into the defendant’s home in the
absence of exigent circumstances. See State v.

App. 52
Bessette, 105 Wn. App. 793, 21 P.3d 318 (2001)
(officer saw juvenile holding a beer bottle, chased
him to Bessette’s home, who refused the officer entry
without a warrant; there were no exigent
circumstances; superior court properly reversed
district court judgment and sentence convicting
Bessette of obstruction).
The trial court and superior court reasoned that
this case is more like State v. Steen, 164 Wn. App.
789, 265 P.3e 01 (2011), rev. denied, 173 Wn.2d 1024
(2012). In Steen, police responded to a report of a
disturbance involving a woman and possibly two
men. Upon arriving, officers saw a woman exit a
trailer on the property; she looked visibly upset.
Officers looked around the property for other
persons, finding no one. The woman did not have a
key to the trailer. The officers knocked loudly on the
trailer door for several minutes, identified
themselves, and told the occupants to come out.
Because the officers were concerned that someone in
the trailer might need emergency assistance, one of
them entered through an open window and unlocked
the door. Steen came out of a bedroom and said he
was sleeping. Officers handcuffed Steen and put him
in the back of the patrol car. Steen refused to provide
his name and date of birth. He was eventually
identified and arrested on an outstanding warrant,
and was charged with obstruction. The trial court
concluded that the community caretaking exception
to the warrant requirement justified the police
warrantless entry, and Steen did not challenge this
ruling. See State v. Smith, 165 Wn.2d 511, 522, 199
P.3d 386 (2009) (community caretaking exception
allows for the limited invasion of constitutionally

App. 53
protected privacy rights when it is necessary for
police to render aid or assistance or when making
routine checks on health and safety); Steen, 164 Wn.
App. at 796, n.1. Steen was convicted of obstruction.
The superior court affirmed, and Steen sought
further review, challenging the sufficiency of the
evidence. Among other things, Steen argued that his
refusal to provide his name and birthdate was
insufficient to establish obstruction. The court
agreed, but the majority of the court further
reasoned that Steen’s refusal to open the trailer door
and exit, when commanded to do so by officers
lawfully entering pursuant to their community care
function, amounted to conduct punishable under the
obstruction statute. Steen, 164 Wn. App. at 801-02.
Here, Mr. McLemore argues that he did
nothing other than refuse the officers entry into his
home and that this passive refusal cannot constitute
obstruction. Phrased as such, Mr. McLemore
arguably raises a significant issue of constitutional
law and/or an issue of public interest. But as in
Steen, the officers had ample reason to be concerned
about the welfare of individuals inside the home;
they heard screaming and yelling when they arrived
and twice heard breaking glass. The woman inside
said she was holding a baby. Mr. McLemore refused
to open the door to allow the officers to check on the
wellbeing of the occupants, and he instructed the
woman to say she was ok. Mr. McLemore does not
argue that the officers warrantless entry under the
community caretaking function was improper.
A person commits obstruction by willfully
hindering, delaying, or obstructing a law
enforcement officer in the discharge of his or her

App. 54
official powers or duties. RCW 9A.76.020. Steen, 164
Wn. App. at 798. It is undisputed that Mr.
McLemore’s refusal to open the door was willful. And
there was evidence from which a rational trier of fact
could find beyond a reasonable doubt that he
hindered, delayed or obstructed the officers in
performance of their community caretaking
function. Steen, 164 Wn. App. at 800.
To the extent Mr. McLemore argues that the
trial court erred in not allowing him to present
evidence of his belief and understanding of the
situation – i.e. that he did not have to open the door
to the officers absent a warrant – he has not
demonstrated a basis for review under RAP 2.3(d).
Therefore, it is
ORDERED that discretionary review is denied.
Sincerely,
S/Richard D. Johnson
Richard D. Johnson
Court Administrator/Clerk

App. 55
________________
APPENDIX H
_________________
[FILED COURT OF APPEALS DIV I STATE OF
WASHINGTON 2018 MAR – 7 PM 12:12]
THE COURT OF APPEALS OF THE STATE
OF WASHINGTON
DIVISION ONE
SOLOMON MCLEMORE, )
Petitioner,
)
)
v.
)
)
CITY OF SHORELINE,
)
RESPONDENT,
)
_____________________ )

No. 77094-2-I
ORDER DENYING
MOTION TO MODIFY

Petitioner, Solomon McLemore, has filed a
motion to modify the commissioner's November 28,
2017 ruling denying his motion for discretionary
review. The respondent, City of Shoreline, has filed
a response. We have considered the motion under
RAP 17.7 and have determined that it should be
denied. Now, therefore, it is hereby
ORDERED that the motion to modify is denied.
s/ Cox,. J
s/ Schindler, J.

App. 56
________________
APPENDIX I
_________________
Washington Statutes Annotated
Title 9A Washington Criminal Code
West’s RCWA 9A.76.020
9A.76.020. Obstructing a law enforcement
officer
Effective May 14, 2001
(1) A person is guilty of obstructing a law
enforcement officer if the person willfully hinders,
delays, or obstructs any law enforcement officer in
the discharge of his or her official powers or duties.
(2) “Law enforcement officer” means any
general authority, limited authority, or specially
commissioned Washington peace officer or federal
peace officer as those terms are defined in RCW
10.93.020, and other public officers who are
responsible for enforcement of fire, building, zoning,
and life and safety codes.
(3) Obstructing a law enforcement officer is a
gross misdemeanor.

